         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Evaluation Report




       Office of Research and Development
       Needs to Improve Its Method of
       Measuring Administrative Savings

       Report No. 11-P-0333

       July 14, 2011
Report Contributors:                               John Bishop
                                                   Dan Howard
                                                   Tiffine Johnson-Davis
                                                   Geoff Pierce
                                                   Rick Beusse




Abbreviations

AEP           Administrative Efficiencies Project
EPA           U.S. Environmental Protection Agency
FTE           Full-time equivalents
FY            Fiscal year
ITIP          Information Technology Improvement Project
OIG           Office of Inspector General
OMB           Office of Management and Budget
OMIS          Office of Research and Development Management Information System
OPM           Office of Personnel Management
ORD           Office of Research and Development
SAB           Science Advisory Board
SEE           Senior Environmental Employees




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:    OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue NW
  fax:       703-347-8330                                       Mailcode 8431P (Room N-4330)
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                       U.S. Environmental Protection Agency                                               11-P-0333

                       Office of Inspector General                                                     July 14, 2011





                       At a Glance
                                                                          Catalyst for Improving the Environment

Why We Did This Review           Office of Research and Development
We conducted this review to      Needs to Improve Its Method of Measuring
determine whether the Office     Administrative Savings
of Research and Development
(ORD) manages its indirect
and overhead costs                What We Found
appropriately to maximize        ORD’s efforts to reduce its administrative costs are noteworthy, but ORD needs to
available funding for research   improve its measurement mechanism for assessing the effectiveness of its
and development activities.      initiatives to reduce administrative costs. ORD used a detailed methodology for
                                 the two surveys it conducted during 2005–2010, which provided a manager’s
Background                       perspective of the amount of time staff spent on administrative duties. However,
                                 we identified some concerns with ORD’s mechanism for assessing its initiatives.
The goals of ORD’s               Only two surveys have been completed in 5 years, and these surveys only obtained
Administrative Efficiencies      the manager’s perspective on administrative costs and did not obtain data directly
Project (AEP) and                from individual employees, including staff whose time was spent on
the Information Technology       administrative activities. Also, the surveys only considered a select number of
Improvement Project (ITIP),      ORD staff rather than all ORD staff. Further, ORD used more detailed definitions
which are two separate           for administrative functions for the second of the two surveys, which may have
initiatives, include reducing    impacted the comparability of results between the two surveys.
costs by improving efficiency
and effectiveness. In a 2006
                                 More frequent collection of data and additional data collected directly from staff
draft report, ORD estimated
                                 related to what they are working on would better measure the effectiveness of
that the AEP would save up to
                                 ORD’s efforts to reduce costs. Also, by reducing the time elapsed between
$13 million in administrative
                                 surveys, ORD could identify and address issues that may impact ORD in meeting
staffing costs annually when
                                 its goal of reducing administrative costs and, in turn, maximize available funding
fully implemented in 2012,
                                 for research and development activities.
and that the ITIP saved
$2 million in 2007.
                                  What We Recommend
                                 We recommend that ORD establish a more timely and accurate system to measure
                                 its effective use of resources and to allow ORD to better manage its initiatives to
For further information,
                                 reduce administrative costs. ORD generally agreed with our recommendation and
contact our Office of            is taking action to implement the recommendation. ORD’s planned actions and
Congressional, Public Affairs    timeline meet the intent of our recommendation.
and Management at
(202)566-2391.

The full report is at:
www.epa.gov/oig/reports/2011/
20110714-11-P-0333.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                        OFFICEGENERAL
                                                                               THE INSPECTOR   OF
                                                                                   INSPECTOR GENERAL



                                           July 14, 2011

MEMORANDUM

SUBJECT:	              Office of Research and Development Needs to Improve its Method of
                       Measuring Administrative Savings
                       Report No. 11-P-0333


FROM:                  Arthur A. Elkins, Jr.
                       Inspector General

TO:                    Paul Anastas
                       Assistant Administrator for Research and Development


This is our report on the subject evaluation conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This report contains findings that describe
the problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

The estimated direct labor and travel costs for this report are $250,290.

Action Required

In accordance with EPA Manual 2750, we are closing this report upon issuance in our tracking
system since your response to the draft report provided corrective actions that meet the intent of
the draft report’s recommendation. In accordance with OIG policy, we will periodically follow
up to determine how well the Agency's corrective actions have addressed the report’s
recommendations. We have no objections to the further release of this report to the public. We
will post this report to our website at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Wade Najjum,
Assistant Inspector General for Program Evaluation, at (202) 566-0832 or
najjum.wade@epa.gov; or Rick Beusse at (919) 541-5747 or beusse.rick@epa.gov.
Office of Research and Development Needs to                                                                                  11-P-0333
Improve Its Method of Measuring Administrative Savings



                                      Table of Contents 

   Purpose .......................................................................................................................    1


   Background .................................................................................................................       1


   Noteworthy Achievements .........................................................................................                  4


   Scope and Methodology ............................................................................................                 4


   Results of Review .......................................................................................................          5


   Conclusions.................................................................................................................       9


   Recommendation ........................................................................................................            9


   Agency Comments and OIG Evaluation ..................................................................                              9


   Status of Recommendations and Potential Monetary Benefits..............................                                           11 




Appendices
   A       Agency Response to Draft Report....................................................................                       12 


   B       OIG Evaluation of Agency Response ...............................................................                         17 


   C       Distribution .........................................................................................................    18 

Purpose
                 The purpose of our review was to determine whether the U.S. Environmental
                 Protection Agency’s (EPA’s) Office of Research and Development (ORD)
                 manages its indirect and overhead costs appropriately to maximize available
                 funding for research and development activities.

Background

                 ORD’s Organizational Structure

                 ORD is organized into three national laboratories, four national centers, and six
                 offices located in 14 facilities around the country and in Washington, DC. ORD
                 also operates 12 national research programs each headed by a National Program
                 Director. The national research programs provide the science to support EPA's
                 goals as outlined in EPA’s strategic plan and ORD’s strategic plan.

                 ORD is in the process of realigning its research and development activities in an
                 effort to improve efficiency and effectiveness. In recent years, ORD created two new
                 offices, the Office of Science Information Management in 2008 and the Office of
                 Administrative and Research Support in 2009, and plans to consolidate its 12 national
                 research programs into 6 national programs by October 2011.

                 Allocation of EPA’s Science and Technology Resources

                 EPA’s fiscal year (FY) 2010 budget for Science and Technology totaled
                 $846 million. These funds were divided among ORD and other EPA offices. A
                 substantial portion (over 30 percent) of EPA’s Science and Technology budget
                 goes to other EPA offices, including the Office of Air and Radiation, Office of
                 Administration and Resources Management, and Office of Water. ORD does not
                 have control over spending of the Science and Technology funds allotted to other
                 offices.

                 ORD’s budget for FY 2010 totaled $594.7 million. Ninety-five percent of this
                 amount comes from EPA’s Science and Technology appropriation. About
                 5 percent, or $27.8 million, comes from other appropriations, largely Superfund.
                 ORD allocated approximately $291 million, or 49 percent of its budget, for
                 grants, cooperative agreements, contracts, and interagency agreements. Further,
                 ORD was allocated funding for about 1,911 full-time equivalents (FTEs)1 in
                 FY 2010. ORD’s personnel compensation and benefits funding is about
                 $250 million, or 42 percent, of ORD’s budget, which pays for these 1,911 FTEs.




1
  FTEs are calculated based on the number of full-time and part-time employees in an organization. FTEs represent
these workers as a comparable number of full-time employees.


11-P-0333                                                                                                           1
                  Diminishing Resources for Research and Development

                  The Science Advisory Board (SAB) has advised the EPA Administrator on EPA’s
                  strategic research directions and budgets for many years. In its review of EPA’s
                  FY 2010 research budget, SAB identified concerns that rising personnel costs are
                  diminishing the actual research that EPA can support. SAB stated:

                            As personnel costs have increased each year and other categories
                            of expenditures have not, the funds that are available to support
                            extramural research, as well as those available to fund procurement
                            of the things that are needed to conduct intramural research,
                            diminish. Without significant overall research budget increases, the
                            “wedging” effect of personnel costs diminishes the actual research
                            that can be supported by EPA. This dynamic is increasingly
                            jeopardizing the strength and balance of ORD’s combined
                            intramural and extramural research program.

                  The EPA Administrator responded to this comment by SAB on September 14,
                  2009:

                            ORD’s increased personnel expenses reflect the Agency’s policy
                            of maintaining personnel compensation and benefits to keep pace
                            with the rising cost of living. The SAB is correct in its observation
                            that rising personnel costs, without attendant increases in ORD’s
                            overall budget, can have a wedging effect on the resources that are
                            available to conduct both extramural and intramural research. We
                            are aware of this challenge and will continue to pursue creative
                            solutions.

                  Administrative Efficiencies Project and Information Technology
                  Improvement Project Initiatives

                  ORD began the Administrative Efficiencies Project (AEP) in 2005 and the
                  Information Technology Improvement Project (ITIP) in 2006. While two separate
                  initiatives, the goals of both initiatives include reducing costs by improving the
                  efficiency and effectiveness of ORD’s administrative and information
                  technology/information management activities. For the AEP, ORD estimated that up
                  to $13 million, or 24 percent, of overall administrative service staffing costs could be
                  saved annually under its recommended realignment2 once fully implemented in 2012.
                  ORD stated in its response to our draft report that it now plans to monitor progress
                  through December 2015 or until targets have been reached. ORD also estimated costs
                  savings for the ITIP.



2
 Draft Report: Environmental Protection Agency’s Office of Research & Development, Administrative Efficiencies Project
(AEP) (Formerly Goal 1), November 1, 2006.


11-P-0333                                                                                                                2
                 According to ORD, based on its analysis in the 2008 AEP Cost Savings Report, the AEP
                 has reduced administrative service delivery expenses by about $7.9 million annually, or
                 11.5 percent, since its start in 2005. This savings is about 48 percent of ORD’s long-term
                 goal of 24 percent in savings for 2012. ORD stated in its 2008 AEP Cost Savings Report
                 that the overall administrative workforce was reduced by 73 work years3 from 2005 to
                 2008. According to this report, the federal workforce showed the largest decline, with a
                 reduction of 63 FTEs. Senior Environmental Employees (SEEs) and contractor staffing
                 decreased by 10 work years, according to the report.

                 ORD also estimated substantial cost savings resulting from the ITIP. For example,
                 the Office of Management and Budget’s (OMB’s) 2007 Program Assessment
                 Rating Tool review of ORD’s Ecological Research Program stated that the ITIP
                 achieved a savings of $2 million in FY 2007 by investing in a more powerful
                 shared platform for high-performance computing and reducing storage costs.
                 Further, according to ORD, the Total Cost of Ownership Initiative, a predecessor
                 to the ITIP, created a standard desktop platform, established a centralized call
                 center, and consolidated aspects of ORD’s core computer infrastructure and
                 maintenance, to achieve an annual savings of $2 million beginning in FY 2005.

                 Consolidation of ORD Research Programs

                 EPA’s Assistant Administrator for Research and Development announced in
                 September 2010 that ORD’s latest realignment would consolidate its research and
                 development programs into 6 national programs. ORD stated that this realignment
                 is to strategically align its research and technical support into broad program areas
                 that cut across national labs, centers, and offices, to allow ORD to work across
                 projects and disciplines. As part of ORD’s Path Forward initiative,4 one of ORD’s
                 goals of this realignment is to increase its mission effectiveness. ORD estimated
                 that this realignment would be completed by October 2011.

                 EPA’s Accounting for Costs

                 ORD’s labs, centers, and offices are responsible for determining the appropriate
                 direct charges for personnel costs at the national program level in accordance with
                 Agency policy.5 ORD does not track costs by individual research projects. ORD
                 stated that, according to this policy, it accounts for its personnel costs at the
                 national program level.




3
  In its 2008 AEP Cost Savings Report, ORD stated that it used the term “work year” to indicate the total workforce
population—federal, SEEs, and on-site contractors. “FTE” indicates full-time equivalent for federal employees only.
4
  EPA’s Assistant Administrator for Research and Development developed a set of principles to guide ORD’s work
going forward, to provide the scientific and technological basis for advancing EPA’s mission to protect human
health and the environment.
5
  Office of the Chief Financial Officer’s PRC Policy & Procedure Document Number: 27334.04001


11-P-0333                                                                                                             3
Noteworthy Achievements
                  ORD has recognized the need to reduce administrative costs and has taken steps to do so
                  by initiating the AEP and ITIP. Although only about half way toward its long-term goal,
                  ORD estimates that its AEP has already reduced its administrative service delivery
                  expenses by nearly 12 percent since its start in 2005, including reducing ORD’s
                  administrative workforce by 73 work years. ORD also estimated cost savings for the ITIP
                  of $2 million in 2007.

Scope and Methodology
                  To determine how ORD manages its indirect and overhead costs, we reviewed
                  information on ORD’s initiatives to reduce its administrative costs,6 particularly
                  ORD’s AEP and ITIP initiatives. We reviewed ORD’s intranet site for AEP and
                  ITIP reports to identify efforts made by ORD to address indirect and overhead
                  costs. We focused our review on personnel costs, since personnel costs represent
                  the largest amount of indirect and overhead costs under ORD’s control. Further,
                  we analyzed ORD’s budget data for the last 3 years, the current year, and the
                  proposed 2011 budget.

                  We reviewed SAB reports that advised the EPA Administrator on EPA’s strategic
                  research directions and budget for recommendations related to properly managing
                  indirect costs and overhead. We also reviewed pertinent guidance issued by
                  OMB.

                  We interviewed representatives from ORD located in Washington, DC, and
                  Research Triangle Park, North Carolina, and the Office of the Chief Financial
                  Officer in Washington, DC, to identify policies, procedures, and guidance
                  documents related to budgeting and accounting for indirect and overhead costs.
                  We also interviewed management and science representatives from various
                  offices within ORD to identify efforts made by ORD to address indirect and
                  overhead costs.

                  Further, with data obtained from ORD, we calculated the number of employees
                  for each job series in three occupational groups that included employees with
                  administrative responsibilities for FYs 2005–2010 to determine whether there
                  were reductions in administrative employees within these fiscal years. The Office
                  of Inspector General (OIG) methodology to calculate estimated reductions in
                  administrative positions differed from the one used by ORD. The OIG calculated
                  the number of employees for each job series in the following occupational groups:
                  General Administrative, Clerical and Office Service Group (job series 301–399);

6
  Indirect and overhead costs are generally costs not directly attributable to a single cost objective or activity. For
the AEP, ORD focused on staffing cost related to administrative service delivery at ORD. Examples of indirect or
administrative costs include personnel costs for budgeting, costs for information management activities, and general
management functions.



11-P-0333                                                                                                                 4
            Accounting and Budget Group (job series 501–560); and Business and Industry
            Group (job series 1101–1105) for FYs 2005–2010. The OIG considered the job
            series in these occupational groups to generally be full-time administrative
            positions for purposes of our analysis. Our comparison only included federal
            employees and did not address federal employees outside of these three
            occupational groups, SEEs, or on-site contractors. ORD’s estimated costs savings
            for the AEP were largely based on two ORD surveys. The ORD survey covered
            more occupational groups and covered SEEs and on-site contractors. Because of
            the amount of time that has passed since ORD completed its surveys and the
            difficulty in verifying estimates obtained during those time periods, our analysis
            did not include a review of the ORD managers’ estimates of time ORD employees
            spent on administrative functions.

            We conducted our evaluation from June 2010 to April 2011 in accordance with
            generally accepted government auditing standards. Those standards require that
            we plan and perform the evaluation to obtain sufficient, appropriate evidence to
            provide a reasonable basis for our findings and conclusions based on our
            evaluation objectives. We believe the evidence obtained provides a reasonable
            basis for our findings and conclusions based on our evaluation objectives.

            Review of Management (Internal) Controls

            Generally accepted government auditing standards require that auditors obtain an
            understanding of internal controls significant to the audit objectives and consider
            whether specific internal control procedures have been properly designed and
            placed in operation. We reviewed policies and procedures, including EPA ORD,
            and Office of the Chief Financial Officer policies, procedures, and guidance
            documents relating to budgeting and properly managing indirect and overhead
            costs. We reviewed vulnerability assessments, assurance letters, and related
            documents under the Federal Managers’ Financial Integrity Act. We also
            reviewed OMB’s Program Assessment Rating Tool assessments for the 12 ORD
            programs reviewed by OMB from 2004 to 2007 for information related to
            budgeting, indirect and overhead costs. Our findings pertaining to specific internal
            and management controls are discussed below.

   Results of Review
            ORD needs to improve its mechanism for assessing the effectiveness of its
            initiatives to reduce administrative costs. ORD only completed two surveys in
            5 years and did not obtain data directly from individual employees, including staff
            whose time was spent on administrative activities. The surveys only reported on a
            selected number of ORD staff, not all ORD staff. Further, ORD used more
            detailed definitions for administrative functions for the second of the two surveys,
            which may have impacted the comparability of results between the two surveys.
            The effectiveness of ORD’s efforts to reduce costs by improving efficiency and
            effectiveness could be better measured if data on staff assignments were collected
            more frequently and directly from the staff involved. Additional data may also be


11-P-0333                                                                                          5
            useful, taking into consideration the costs involved with their collection. Also, by
            surveying more frequently, ORD could identify and address issues that may
            impact ORD in meeting its goal of reducing administrative costs and, in turn,
            maximizing available funding for research and development activities.

            OMB Circular A-123 states that management controls are the organization,
            policies, and procedures used to reasonably ensure that “programs achieve their
            intended results”; “resources are used consistent with agency mission”; and
            “reliable and timely information is obtained, maintained, reported, and used for
            decision making.” Without such reliable and timely information, ORD lacks an
            adequate measure of how its resources are actually used.

            ORD Should Improve Method of Measuring Savings

            ORD measured its progress toward achieving targeted savings by comparing
            periodic snapshots of ORD administrative service staffing performing the
            functional areas identified in the AEP report. Estimated costs savings for the AEP
            were largely based on two ORD surveys, one conducted in 2005 and the other in
            2008. The surveys were completed by each lab, center, and office Program
            Operations Staff Director (approximately 15 managers) for their respective
            administrative workforces. According to ORD:

                   A small team of 5 Program Operations Staff Directors (called the
                   Goal 1 team) developed a list of functional categories to better
                   understand the level of resources devoted to providing
                   administrative and research support services. The data included
                   support provided by Federal employees, SEE enrollees and
                   contractors. Each Program Operations Staff Director gathered data
                   for their respective organization, for review by the Goal 1 team to
                   ensure consistency and completeness.

            While ORD used a detailed survey methodology, and the two surveys ORD
            conducted provided the manager’s perspective of the amount of time staff spent
            on administrative duties, we identified the following concerns:

                   	 ORD has only conducted two surveys in 5 years, and estimated that
                      the next survey will not be conducted until late in calendar year 2011.

                   	 The staff members whose time was spent on administrative activities
                      did not complete the survey.

                   	 The surveys only reported on a selected number of ORD staff. For
                      example, ORD’s 2005 survey estimated time for 721 people (including
                      certain federal, SEE, and contractors). By comparison, ORD reported
                      having 1,975 employees in FY 2005.



11-P-0333                                                                                          6
                            	 ORD used more detailed definitions for administrative functions for
                               the second of the two surveys, which may have impacted the
                               comparability of results between the two surveys. For example, ORD
                               changed the number of administrative functions from 10 in the 2005
                               survey7 to 14 in the 2008 survey, and changed the number of
                               administrative subfunctions from 22 in 2005 to 41 in 2008. While this
                               helped ORD managers by providing the managers with more precise
                               definitions for administrative functions and subfunctions in the 2008
                               survey, the change made assessing the effectiveness of its initiatives
                               more difficult. This difficulty occurred because we could not measure
                               the extent to which the different definitions impacted the ORD
                               managers’ estimates of time their employees spent on administrative
                               activities.

                  ORD reports for the ITIP initiative have acknowledged problems with
                  determining actual personnel savings of the IT efforts, including stating, “It is
                  generally not clear who is involved in IT/IM (information technology/information
                  management) support within ORD.” ORD also reported:

                            Even with mandatory time management multi-million dollar
                            human resource systems, and federal requirements to categorize
                            individuals and maintain job descriptions, the only reliable way to
                            understand who is engaged in IT/IM (information
                            technology/information management) functions in ORD is to
                            release a survey to the organization. However, even after this is
                            performed, there is widespread acknowledgement that the data
                            received does not accurately portray reality.8

                  A more timely and accurate measurement mechanism would better enable ORD
                  to provide reasonable assurance of its effective use of resources in accordance
                  with the intent of OMB Circular A-123, as well as allow ORD to better assess the
                  effectiveness of its initiatives to reduce administrative costs.

                  OIG’s Limited Comparison of Three Job Series

                  We compared the number of ORD administrative employees for each job series in
                  three occupational groups of ORD employees with administrative responsibilities
                  for FYs 2005–2010. The reduction in ORD administrative employees from 2005
                  to 2008 was 22 FTEs, or approximately a 6 percent reduction in administrative
                  employees. The 2008 AEP report estimated a 14.4 percent reduction in federal
                  administrative FTEs during this same time period. However, it should be noted
                  that our comparison only included federal employees and did not cover ORD

7
 Draft Report: Environmental Protection Agency’s Office of Research & Development, Administrative Efficiencies Project
(AEP) (Formerly Goal 1), November 1, 2006.
8
  Office of Research and Development, IT Improvement Project Workgroup, Current State Findings,
July 28, 2006.


11-P-0333                                                                                                                7
                 employees outside of these three occupational groups, nor did it cover SEEs or
                 on-site contractors. The ORD survey covered a larger number of occupational
                 groups and covered SEE employees and on-site contractors. Table 1 shows the
                 year-to-year changes in each of the three Office of Personnel Management (OPM)
                 occupational groups that contain job series with administrative responsibilities,
                 and the cumulative changes for the three series over the last 6 fiscal years.

Table 1: OIG analysis of three ORD occupational groups of employees with administrative
responsibilities, FYs 2005–2010

          Number of       Number of       Number of       Total number
          employees       employees       employees       of employees           Percent
Fiscal    in 300 job      in 500 job      in 1100 job      in the three          change           Percent change
 year       series a       series b         series c          series          (year to year)       (cumulative) d
2005          342              35               7               384                 n/a                   n/a
2006          333              35               7               375                 - 2%                 - 2%
2007          329              33               7               369                 - 2%                 - 4%
2008          321              30              11               362                 - 2%                 - 6%
2009          303              33               8               344                 - 5%                 -10%
2010          308              41               6               355                + 3%                  - 8%
Source: 	OIG-created analysis of EPA ORD data.
         a
           The 300 series represents job positions in OPM’s General Administrative, Clerical and Office Services Group.
         b
           The 500 series represents job positions in OPM’s Accounting and Budget Group.
         c
           The 1100 series represents job positions in OPM’s Business and Industry Group.
         d
           Minor cumulative differences exist due to rounding.


                 The OIG methodology provided a trend analysis of the number of ORD
                 administrative positions for these three categories for each year. Our analysis
                 showed that the number of positions classified as administrative for the three
                 occupational groups decreased from 384 to 355 from FY 2005 through FY 2010.
                 We identified an increase of 11 administrative employees from FY 2009 to
                 FY 2010. We acknowledge that this increase may not be indicative of the trend
                 for all ORD personnel performing administrative tasks during these time periods.
                 However, we believe that tracking the number of ORD administrative employees
                 annually or more frequently can help ORD better identify potential impediments
                 to meeting its goal of reducing administrative costs.

                 Recent ORD Measurement Efforts

                 ORD managers stated that ORD has taken steps that would allow it to identify
                 administrative employees and to track the number of employees in administrative
                 positions. For example, each month EPA’s Human Resources Division provides a
                 report of personnel changes, and ORD updates its organization roster based on
                 this report. Administrative personnel are identified in the administrative roster. In
                 December 2010, ORD decided to put the information in the updated organization
                 rosters in its Office Management Information System Human Resources module
                 (database). ORD completed a reconciliation of administrative personnel in this


11-P-0333                                                                                                           8
            database and the ORD administrative roster. ORD plans to reconcile its database
            and administrative roster every 6 months as part of its quality assurance process.
            In response to our draft report, ORD stated that “tagging” (identifying) federal
            administrative personnel in its database and reconciling this result with personnel
            rosters will continue through December 2015 or until targets have been reached.

            There are limitations to both ORD’s and OIG’s methodologies. While we cannot
            verify ORD’s estimates of administrative savings, we believe that shorter
            intervals between surveys would allow ORD to conduct annual or more frequent
            trend analysis that could help it determine whether it is on track to meet its goals.
            Further, these trend analyses would allow ORD to more promptly identify issues
            affecting progress and allow ORD to make appropriate changes toward goal
            accomplishment. For example, our analysis identified an increase in
            administrative positions in FY 2010 that may not have been identified under
            ORD’s measurement methods that were in effect for the time period we reviewed.
            There may also be increases in administrative costs, due to an increase in the
            number of administrative employees, which should be more promptly disclosed
            and addressed. ORD, by more frequently surveying these activities, would
            enhance its ability to more quickly identify lapses in progress toward goal
            attainment.

Conclusions
            ORD does not have sufficient data nor a timely or accurate system for assessing
            the effectiveness of its initiatives to reduce administrative personnel costs. Until it
            does, ORD will not have the information needed to provide reasonable assurance
            that it is managing its administrative personnel costs appropriately so as to
            maximize available funding for research and development activities. To assess the
            effectiveness of it initiatives, ORD needs to be able to accurately and timely
            measure its administrative costs.

Recommendation
            We recommend that the Assistant Administrator for Research and Development:

                   1. 	    Establish a more timely and accurate system to measure its
                           effective use of resources and to allow ORD to better manage its
                           initiatives to reduce administrative costs.

Agency Comments and OIG Evaluation

            ORD agreed with our finding that the savings from its efforts to reduce
            administrative costs could be better measured had the Agency collected data
            from staff on a more frequent basis. ORD also agreed with the recommendation.
            However, ORD stated that it had several reservations about other findings
            included in the report. ORD’s complete written response is in Appendix A. We


11-P-0333                                                                                             9
            made changes to the final report based on these comments, as appropriate. Our
            evaluation of the Agency’s response is in Appendix B.

            In response to Recommendation 1, ORD stated that it will “tag” federal
            administrative personnel, SEEs, and on-site contractors in its Office of Research
            and Development Management Information System (OMIS) and reconcile this
            data with personnel rosters on a monthly basis. In addition, ORD’s senior
            management will meet twice each year to review current status and outline plans
            to attain organizational administrative staffing targets. ORD stated that this
            process would continue through December 2015 or until targets have been
            reached. ORD’s planned actions and the timeline for completion of the
            recommendation meet the intent of our recommendation. As such, we are closing
            this report upon issuance in our tracking system.




11-P-0333                                                                                       10
                                 Status of Recommendations and
                                   Potential Monetary Benefits
                                                                                                                                POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                                               BENEFITS (in $000s)

                                                                                                                    Planned
    Rec.    Page                                                                                                   Completion   Claimed    Agreed To
    No.      No.                         Subject                          Status1         Action Official             Date      Amount      Amount

     1        9     Establish a more timely and accurate system to          O        Assistant Administrator for   December
                    measure its effective use of resources and to allow             Research and Development         2011
                    ORD to better manage its initiatives to reduce
                    administrative costs.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




11-P-0333                                                                                                                                              11
                                                                                     Appendix A

                   Agency Response to Draft Report


MEMORANDUM


SUBJECT:	 Office of Research and Development (ORD) Response ORD Needs to Improve Its
          Method Of Measuring Administrative Savings, Project No. OPE-FY10-0018

FROM:	         Lek G. Kadeli
               Deputy Assistant Administrator
               Office of Research and Development

TO:    	       Wade Najjum
               Assistant Inspector General
               Office of Program Evaluation

        Thank you for the opportunity to comment on the Office of Inspector General (OIG) draft
audit report, ORD Needs to Improve Its Method Of Measuring Administrative Savings (Project
No. OPE-FY10-0018), dated April 12, 2011. We appreciate the OIG’s recognition that “AEP has
already reduced [ORD’s] administrative service delivery expenses by nearly 12 percent.”

        The ultimate goal of ORD’s Administrative Efficiencies Project (AEP) was to achieve
significant efficiencies in delivering administrative support services. We did this by taking steps
to identify ORD-wide organizational alignment options and implementation approaches. We also
developed common business practices, standard operating procedures, and leveraged existing
technology. In addition, we took advantage of industry and government best practices for
administrative support delivery management.

       In the “At a Glance” section, your draft report states:

        “ORD used a detailed methodology for the two surveys it conducted during 2005–2010,
which provided a manager’s perspective of the amount of time staff spent on administrative
duties. However, this was not an effective mechanism for accurately assessing its initiatives for
several reasons. First, only two surveys have been completed in 5 years.”

        ORD agrees with your finding that the savings could be better measured had we collected
data from staff on a more frequent basis. We also agree with the subsequent recommendation
that addresses this particular finding. However, we have several reservations about the other


11-P-0333                                                                                             12
findings you included in your report, some of which we shared in response to your preliminary
outline of assignment results.

        As noted in your report, OIG’s methodology to calculate estimated reductions in
administrative positions was limited to“… federal employees and did not address federal
employees outside of these three occupational groups.” You acknowledge that “the ORD survey
covered more occupational groups and covered SEEs and on-site contractors.” However, there
is no explanation in the report on why ORD used a more comprehensive methodology as
opposed to limiting our methodology to certain occupational groups. Your staff did not audit our
methodology or cost savings data but your report gives the impression that ORD’s methodology
and cost savings data was flawed. Although we appreciate the additional insight that OIG
provided, we believe a better understanding of our comprehensive methodology would have
influenced your approach.

        ORD’s review evaluated each position and determined what percentage of their time was
spent on administrative duties. This evaluation looked at employees, SEE enrollees, as well as
contractors. We believed that, due to inefficiencies that existed at the time, scientists and other
staff were performing some administrative activities even though they were not classified in
certain occupational groups. We wanted this to be a comprehensive review, so we did not limit
our focus to specific occupational groups. We believed that the approach we used gave an
accurate assessment of the total cost of ownership as it relates to our administrative support
footprint.

                      See Appendix B, Note 1, for OIG Response.

        In your draft report, you state “Second, the surveys only obtained the manager’s
perspective on administrative costs, and did not obtain data directly from individual employees,
including staff whose time was spent on administrative activities.” We believed that a manager’s
perspective would add more value to the process. A key responsibility of a manager is to oversee
their employees’ work responsibilities. When we needed more information on what positions
were performing administrative duties, we believed managers would provide a more accurate
assessment of the administrative work being performed by their employees. Many of the
managers reached out to their employees in order to provide the information that was requested
in the 2005 and 2008 survey.

                      See Appendix B, Note 2, for OIG Response.

      In your draft report, you further state “Third, the surveys only considered a select number
of ORD staff, rather than all ORD staff.” Our decision to not survey all employees was



11-P-0333                                                                                             13
intentional and calculated. We did not believe a full survey of all of the ORD staff was
appropriate, especially since many of the positions were not within scope of the AEP.

                      See Appendix B, Note 3, for OIG Response.

        In your draft report, you further state “Fourth, ORD used different definitions for
administrative functions for the two surveys”. We would like to restate that ORD did not use
different definitions of for administrative functions for the two surveys. We used more
specificity, not different definitions. The goal of the follow-up survey was to do more of a deep
dive in order to develop a new baseline. The definitions were clarified to ensure that we were
getting the detailed information needed in our re-baseline effort. Our clarifications were intended
to limit the interpretation needed in understanding the definitions of administrative functions.

                      See Appendix B, Note 4, for OIG Response.

        In addition to the comments above, we would also like to offer the following technical
clarifications:

            	 On page 5, you reference contractors as employees. Contractors that work in ORD
               are employees of the contracted company, not employees of the U.S.
               Environmental Protection Agency.

                      See Appendix B, Note 5, for OIG Response.

            	 On Page 1, you mentioned that ORD has two offices. We would like to clarify
               that ORD has six offices including:
                   o IOAA: Immediate Office of the Assistant Administrator
                   o	 OARS: Office of Administrative and Research Support
                   o	 ORMA: Office of Resources Management and Administration
                   o	 OSA: Office of the Science Advisor
                   o	 OSIM: Office of Science Information Management
                   o	 OSP: Office of Science Policy

                      See Appendix B, Note 6, for OIG Response.


            	 The information technology improvement project (ITIP) and AEP are two
               separate initiatives; the report seems to merge the two together which could
               mislead the reader.



11-P-0333                                                                                             14
                      See Appendix B, Note 7, for OIG Response.

            	 The report does not seem to acknowledge that the AEP stand up is not yet
               complete.

                      See Appendix B, Note 8, for OIG Response.

        In response to your recommendation, we have attached a table outlining ORD's
corrective actions and projected completion dates. If you have any questions, please contact
Norman Adkins at (919) 541-0872.

cc: 	   Arthur Elkins
        Rick Beusse
        Lek Kadeli
        Amy Battaglia
        Jerry Blancato




11-P-0333                                                                                      15
Attachment I                                ORD Corrective Actions and Projected Completion Dates
     Rec                                          Lead
     No.       OIG Recommendation             Responsibility             ORD Corrective Action                          Planned Completion Date
                                                                ORD will "tag" federal administrative          Tagging of federal administrative
           Establish a more timely and                          personnel, SEEs, and on-site contractors in    personnel in OMIS and reconciling with
 1         accurate system to measure its    Director, Office   ORD's administrative system (OMIS) and         personnel rosters will continue through
           effective use of resources and   of Administrative   reconciling this data with personnel rosters   December 2015 or until targets have
           to allow ORD to better manage      and Research      on a monthly basis. In addition, ORD's         been reached. The first ORD senior
           its initiatives to reduce         Support, ORD       senior management will meet twice each         management meeting will be completed
           administrative costs.                                year to review current status and outline      by December 2011 and will continue
                                                                plans to attain organizational                 twice a year thereafter through 2015 or
                                                                administrative staffing targets.               until targets have been reached.




           11-P-0333                                                                                                                      16
                                                                                      Appendix B

                OIG Evaluation of Agency Response
Note 1: 	 As noted on page 5, because of the amount of time that had passed since ORD
          completed its surveys and the difficulty in verifying estimates obtained, our analysis did
          not include a review of ORD managers’ estimates of employee time spent on
          administrative functions. Our analysis was intended to identify whether assessing
          yearly trends in ORD’s administrative personnel costs may reveal information not
          captured by ORD’s two surveys.

Note 2: 	 We agree that the manager’s perspective is important, but we also believe that the
          effectiveness of ORD’s efforts to reduce costs would be better measured if data on staff
          assignments were also collected more frequently and directly from the staff involved.

Note 3: 	 The intent of this statement was to indicate that since the surveys only reported on a
          selected number of ORD staff, some administrative costs might not be captured in the
          survey.

Note 4: 	 We acknowledged on page 7 that this provided the managers with more precise
          definitions for administrative functions and subfunctions in the 2008 survey. We
          revised the final report to say that ORD used more detailed definitions for
          administrative functions for the second of the two surveys, which may have impacted
          the comparability of results between the two surveys.

Note 5: 	 We revised the final report to make clear that we were talking about contractors and not
          EPA employees.

Note 6: 	 ORD’s recommended revision made on page 1 in the final report. However, as of June
          27, 2011, ORD’s website at http://www.epa.gov/aboutepa/ord.html continued to state:
          “ORD is organized into three national laboratories, four national centers, and two
          offices located in 14 facilities around the country and in Washington, D.C.” We have
          requested that ORD update its public website.

Note 7: 	 We added clarifying text to the final report to make it clear that these are two separate
          initiatives. Text was added to the At a Glance and on page 2 under “Administrative
          Efficiencies Project and Information Technology Improvement Project Initiatives.

Note 8: 	 We acknowledged in several places in the draft report that the AEP project is not yet
          complete. For example, on page 2, we provided ORD’s estimated savings for the AEP
          once fully implemented in 2012, and on page 3 we compared the estimated savings in the
          2008 report to ORD’s long-term goal of 24 percent in savings for 2012. Additionally, we
          updated this section by adding that ORD plans to monitor progress through December
          2015 or until targets have been reached. We also stated on page 7 that ORD estimated that
          the next survey will not be conducted until late in calendar year 2011.



11-P-0333                                                                                              17
                                                                             Appendix C

                                   Distribution
Office of the Administrator
Assistant Administrator for Research and Development
Agency Followup Official (the CFO)
Agency Followup Coordinator
General Counsel
Deputy Assistant Administrator for Management, Office of Research and Development
Deputy Assistant Administrator for Science, Office of Research and Development
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Information
Audit Followup Coordinator, Office of Research and Development




11-P-0333                                                                                 18
